2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-221
MICHELLE VALENT,
Petitioner,

v.
ANDREW M. SAUL,

Legal Briefs

COMMISSIONER OF SOCIAL SECURITY,

Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE, REASON FOUNDATION, AND COMMITTEE FOR JUSTICE IN SUPPORT
OF PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail. Packages

were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C, EASTMAN
ANTHONY T. CASO
Counsel of Record
Claremont Institute’s Center for
Constitutional Jurisprudence
c/o Dale E. Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu

Counsel for Amici Curiae

Subscribed and sworn to before me this 19th day of September, 2019.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary,

State of Nebraska
My Commission Expires Nov 24, 2020

 

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

C Clit, Qudeow-h, ale

 

 

Notary Public

Affiant

38607
 

 

Attorneys for Petitioner

Adam Rabun Fast Gustafson Boyden Gray & Associates PLLC 202-577-5681
Counsel of Record 801 17th Street, NW, Suite 350
Washington, DC 20006

gustafson@boydengrayassociates.com

Party name: Michelle Valent

 

Attorneys for Respondent

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Saul, Commissioner of Social Security, Andrew

 

 
